No. 20-303
In the

Supreme Court of the United States
__________________

UNITED STATES OF AMERICA,
Petitioner,
v.
JOSE LUIS VAELLO-MADERO,
Respondent.
__________________
On Writ of Certiorari to the United States
Court of Appeals for the First Circuit

__________________
BRIEF OF AMICUS CURIAE DIÁLOGO POR
PUERTO RICO IN SUPPORT
OF RESPONDENT
__________________
JESÚS R. RABELL MÉNDEZ
Counsel of Record
RABELL MÉNDEZ C.S.P.
P.O. Box 195580
San Juan, Puerto Rico 00919
(787) 312-0259
jesusrabell@gmail.com
Counsel for Amicus Curiae
Diálogo Por Puerto Rico
(Dialogue of Puerto Rico)

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
I.

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . 7

II.

THE
SUPPLEMENTAL
SECURITY
INCOME (SSI) PROGRAM. . . . . . . . . . . . . . . 7

III.

ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . 8

IV.

THE TERRITORY CLAUSE ARGUMENT. . . 17

V.

LIBERTY
AND
PROPERTY
ARE
ENSHRINED IN DUE PROCESS, EQUAL
PROTECTION AND IN THE RIGHTS,
PRIVILEGES AND IMMUNITIES OF
PERSONS AND CITIZENS . . . . . . . . . . . . . . 19

VI.

THE INSULAR CASES OF DOWNES V.
BIDWELL AND BALZAC V. PORTO RICO
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

VII.

THE
FUNDAMENTAL
RIGHTS,
PRIVILEGES AND IMMUNITIES OF THE
INHABITANTS OF PUERTO RICO . . . . . . 21

VIII. THE STATUS OF THE INHABITANTS OF
PUERTO RICO . . . . . . . . . . . . . . . . . . . . . . . 24

ii
IX.

PUERTO RICO AS A BODY POLITIC – A
COMMONWEALTH - WITH THE TYPICAL
AMERICAN
GOVERNMENTAL
STRUCTURE, CONSISTING OF THE
THREE INDEPENDENT DEPARTMENTS —
LEGISLATIVE, EXECUTIVE, AND
JUDICIAL AND A BILL OF RIGHTS
GUARANTEEING LIFE, LIBERTY, AND
PROPERTY . . . . . . . . . . . . . . . . . . . . . . . . . . 27

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

iii
TABLE OF AUTHORITIES
CASES
Balzac v. Porto Rico,
258 U.S. 298 (1922). . . . . . . . . . . . . . . . . . . passim
Calero-Toledo v. Pearson Yacht Leasing Co.,
416 U.S. 663 (1974). . . . . . . . . . . . . . . . . . . . . 5, 28
Califano v. Torres,
435 U.S. 1 (1978). . . . . . . . . . . . . . . . . . . . . . . . . 19
Commonwealth ex rel. Children’s Aid Society v.
Gard, 362 Pa. 85 (Pa. 1949) . . . . . . . . . . . . . . . . 18
Commonwealth v. Valle,
136 S. Ct. 1863 (2016). . . . . . . . . . . . . . . 21, 28, 29
Downes v. Bidwell,
182 U.S. 244 (1901). . . . . . . . . . . . 2, 15, 18, 19, 20
Dred Scott v. Sandford,
60 US 393 (1857). . . . . . . . . . . . . . . . . . . . . . 17, 18
Examining Bd. of Engineers, Architects and
Surveyors v. Flores de Otero,
426 U.S. 572 (1976). . . . . . . . . . . . . . . . . . . passim
Financial Oversight & Management Board for
Puerto Rico v. Aurelius Investment, LLC,
140 S. Ct. 1649 (2020). . . . . . . . . . . . . . . . . . 21, 23
Gonzales v. Williams,
192 U.S. 1 (1904). . . . . . . . . . . . . . . . . . . 22, 24, 26
Harris v. Rosario,
446 U.S. 651 (1980). . . . . . . . . . . . . . . . . 15, 20, 24

iv
Igartúa v. Trump,
868 F.3d 24 (1st Cir. 2017) . . . . . . . . . . . . . . . . . 11
Igartúa v. United States,
626 F.3d 592 (1st Cir. 2010) . . . . . . . . . . . . . . . . 11
McDonald v. Chicago,
561 U.S. 742 (2010). . . . . . . . . . . . . . . . . . . . . 2, 17
Mora v. Mejias,
115 F. Supp. 610 (D.P.R. 1953) . . . . . . . . . . . . . . 5
Mora v. Mejias,
206 F.2d 377 (1st Cir. 1953) . . . . . . . . . . . . . . . . . 5
Peña Martinez v. Azar,
376 F. Supp. 3d 191 (D.P.R. 2019) . . . . . . . . 7, 24
Puerto Rico v. Shell Co.,
302 U.S. 253 (1937). . . . . . . . . . . . . . . . . . . . 27, 28
Texas v. White,
74 U.S. (7 Wall.) 700 (1869) . . . . . . . . . . . . . . . . . 5
Torres v. Puerto Rico,
442 U.S. 465 (1979). . . . . . . . . . . . . . . . . . . . . . . 26
Truax v. Corrigan,
257 U.S. 312 (1921). . . . . . . . . . . . . . . . . 11, 12, 16
United States v. Vaello-Madero,
956 F.3d 12 (1st Cir. 2020) . . . . . . . . . 8, 12, 14, 15
United States Department of Agriculture v. Moreno,
413 U.S. 528 (1973). . . . . . . . . . . . . . . 9, 12, 13, 30
CONSTITUTIONS AND STATUTES
U.S. Const. Art. IV, § 2, cl. 1 . . . . . . . . . . . . . . . . 3, 10

v
U.S. Const. Art. IV, § 3 . . . . . . . . . . . . . . . . . . 5, 6, 19
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . 11
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . 11
P. R. Const., Preamble . . . . . . . . . . . . . . . . . . . . . . . . 3
P. R. Const., Art. I . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
P. R. Const., Art. II, § 7 . . . . . . . . . . . . . . . . . . . . . . . 4
8 U.S.C. § 1402 . . . . . . . . . . . . . . . . . . . . . . . . . . 26, 27
42 U.S.C. §§ 401-433 . . . . . . . . . . . . . . . . . . . . . . . . . 7
42 U.S.C. § 1381 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
42 U.S.C. § 1382(a). . . . . . . . . . . . . . . . . . . . . . . . . . . 7
42 U.S.C. § 1382.2 . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
42 U.S.C. § 1382c . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
48 U.S.C. § 731 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
48 U.S.C. § 737 . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4, 10
48 U.S.C. § 2149 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Federal Relations Act, ch. 446, § 2, 64 Stat. 319
(July 3, 1950). . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Social Security Amendments of 1972, Pub. L. No.
92–603, § 301, 86 Stat. 1329 (1972) . . . . . . . . . . . 8
The Jones Act of March 2, 1917, ch. 145, § 2,
39 Stat. 951 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Mar. 2, 1917, ch. 145, § 2, 39 Stat. 951 . . . . . . . . . . . 3

vi
Feb. 3, 1921, ch. 34, § 1, 41 Stat. 1096 . . . . . . . . . . . 3
Mar. 2, 1934, ch. 37, § 1, 48 Stat. 361 . . . . . . . . . . . . 3
Aug. 5, 1947, ch. 490, § 7, 61 Stat. 772 . . . . . . . . . . . 3
July 3, 1950, ch. 446, § 5(1), 64 Stat. 320 . . . . . . . . . 3
June 27, 1952, ch. 477, title III, ch. 1, § 302,
66 Stat.236 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Pub. L. No. 116-94, 133 Stat. 2534 (2019). . . . . . . . . 7
TREATIES
Treaty of Peace Between the United States and
Spain of December 10, 1898 (Treaty of Paris of
1898) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 24, 25
OTHER AUTHORITIES
Cong. Rsch. Serv., Constitution of the United
States: Analysis and Interpretation, “Fifth
Amendment > Amdt5.4.5.2.6 Equal Protection
as a Substantive Component of Due Process
Clause” (https://constitution.congress.gov/browse
/essay/amdt5_4_5_2_6/#ALDF_00008467). . . . . 16
Batholomew H. Sparrow, The Insular Cases and the
Emergence of American Empire (University
Press of Kansa 2006) . . . . . . . . . . . . . . . . . . . . . 15
Joseph Story, Commentaries on the Constitution of
the United States (Little, Brown and Company,
Fourth Edition 1873) . . . . . . . . . . . . . . . . . . . . . 18

vii
Walker, Mac Amhlaigh, and Michelon, “Law, polity
and the legacy of statehood: An introduction”
(International Journal of Constitutional Law,
Volume 16, Issue 4, October 2018). . . . . . . . . . 5, 6

1
INTEREST OF AMICUS CURIAE1
The amicus curiae Diálogo Por Puerto Rico
(Dialogue of Puerto Rico) is a not-for-profit
unincorporated association composed of persons and
citizens of the United States residing in the body politic
named the Commonwealth of Puerto Rico dedicated to
study, analyze, evaluate and defend the welfare of
persons and citizens who inhabit in said
Commonwealth.
Dialogue of Puerto Rico Executive Committee and
other representative members are: José R. Varela, Esq.
President, Former member of the the House of
Representatives; Professor Margarita Ostolaza, Former
member of the Senate; Dr. Manuel Martinez
Maldonado, Former President and Dean of the
Medicine School in Ponce; Anibelle Sloan, Esq. former
director of Press Office of the Governor; Professor
Ruben Pagán, Inter American University; Juan Agosto
Alicea, Former Treasury Secretary of Puerto Rico; Luis
Arroyo Colon, Esq.; Hector Jimenez Juarbe, Esq.,
Former Executive Vice President Association of
Industrials; Professor Elsa Tió, Poet; José Luis
Méndez, Former Professor at the University of Puerto
Rico; Antonio. J. Colorado Former Secretary of State;
Jose Izquierdo Encarnación, Former Secretary of State
and Former secretary of Transportation and Public
Works; Carlos Rios Gautier Esq. Former Secretary of
Justice; all of them of Puerto Rico.
1

The parties have consented. Amicus certify that no counsel for a
party authored this brief in whole or in part and no one other than
amicus or counsel, have made a monetary contribution to its
preparation.

2
SUMMARY OF THE ARGUMENT
The inhabitants of Puerto Rico have rights,
privileges and immunities not to be deprived and
divested of life, liberty, and property under the
Constitution of the United States regarding the SSI
program. This conclusion can be reached either by
following the test laid down by the plurality of the
Supreme Court in McDonald v. Chicago, 561 U.S. 742
(2010) determining that the right at issue is
“fundamental to our scheme of ordered liberty” or that
the right is “deeply rooted in this Nation’s history and
tradition” Id. at 767;2 under the test laid out in
Examining Board of Engineers, Architects & Surveyors
v. Flores de Otero, 426 U.S. 572, 599-601 (1976) as
explained below under the heading of “The
fundamental rights, privileges and immunities of the
inhabitants of Puerto Rico”; or by resorting to the
leading Insular Cases of Downes v. Bidwell, 182 U.S.
244 (1901) and Balzac v. Porto Rico, 258 U.S. 298
(1922) as we further explain below under the heading
“The Insular Cases of Downes v. Bidwell and Balzac v.
Porto Rico”.
Persons and citizens of the United States are
entitled to live under a republican form of government
with separation of powers and a bill of rights with due
2

The Supreme Court in the recent plurality opinion authored by
Justice Alito of McDonald v. Chicago, supra at 767 has framed the
due process analysis as a method of determining whether the right
at issue is “fundamental to our scheme of ordered liberty” or
whether the right is “deeply rooted in this Nation’s history and
tradition”. Justice Thomas would hold that this right applies
against the States through the Privileges or Immunities Clause of
the Fourteenth Amendment. Id. at 805.

3
process and equal protection for all and without being
deprived and divested of life, liberty, and property.
Although these due process and equal protection rights,
privileges and immunities in Puerto Rico are also
guaranteed by the Federal Relations Act3 and the
Constitution of Puerto Rico4 it is not necessary for the
3

48 USC Section 731 was enacted as part of the Puerto Rican
Federal Relations Act. (July 3, 1950, ch. 446, §2, 64 Stat. 319.). Act
July 3, 1950, which enacted sections 731b to 731e of this title, was
submitted to the qualified voters of Puerto Rico through an islandwide referendum held on June 4, 1951 and approved.
48 U.S. Code § 737. (Privileges and immunities) provide:
The rights, privileges, and immunities of citizens of the
United States shall be respected in Puerto Rico to the same
extent as though Puerto Rico were a State of the Union and
subject to the provisions of paragraph 1 of section 2 of
article IV of the Constitution of the United States.

(Mar. 2, 1917, ch. 145, § 2, 39 Stat. 951; Feb. 3, 1921, ch. 34, § 1, 41
Stat. 1096; Mar. 2, 1934, ch. 37, § 1, 48 Stat. 361; Aug. 5, 1947, ch.
490, § 7, 61 Stat. 772; July 3, 1950, ch. 446, § 5(1), 64 Stat. 320.)
Article IV, Section 2, Clause 1 of the United States Constitution
provides:
The Citizens of each State shall be entitled to all Privileges
and Immunities of Citizens in the several States.
It is not necessary for the Court to reach the issues under the
Federal Relations Act or Law 600.
4

The Preamble to the Constitution of Puerto Rico provides:
We consider as determining factors in our life our
citizenship of the United States of America and our
aspiration continually to enrich our democratic heritage in
the individual and collective enjoyment of its rights and
privileges.

4
Court to reach those issues as the due process and
equal protection rights, privileges and immunities are
protected under the United States Constitution. Since
1917 in the Jones Act5 and later in the Constitution of
Puerto Rico6 life, liberty, and property, due process and
equal protection have been textually protected.
Previous to 1917 and the Jones Act those rights,
privileges and immunities had been protected by the
The Constitution of Puerto Rico in Article I (The Commonwealth)
provides in pertinent part:
Section 1. The Commonwealth of Puerto Rico is hereby
constituted. Its political power emanates from the people
and shall be exercised in accordance with their will, within
the terms of the compact agreed upon between the people
of Puerto Rico and the United States of America.
Section 2. The government of the Commonwealth of Puerto
Rico shall be republican in form and its legislative, judicial
and executive branches as established by this Constitution
shall be equally subordinate to the sovereignty of the people
of Puerto Rico.
5

The Jones Act of March 2, 1917, 48 U.S.C. § 737, ch. 145, § 2, 39
Stat. 951 provided:
No law shall be enacted in Puerto Rico which shall deprive
any person of life, liberty, or property without due process
of law, or deny to any person therein the equal protection
of the laws.

6

Article II, Section 7 of the Puerto Rico Constitution provides:
The right to life, liberty and the enjoyment of property is
recognized as a fundamental right of man. The death
penalty shall not exist. No person shall be deprived of his
liberty or property without due process of law. No person
in Puerto Rico shall be denied the equal protection of the
laws. No laws impairing the obligation of contracts shall be
enacted. A minimum amount of property and possessions
shall be exempt from attachment as provided by law.

5
United States Constitution and the Supreme Court of
the United States jurisprudence.
This case is being addressed by counsel for the
United States centered in part in a constitutional
clause dealing with territory or property7, not with
persons or citizens8 living in the body politic named the
Commonwealth of Puerto Rico. Puerto Rico is composed
of people, territory, and government9. The amicus
7

Article IV, Section 3 of the United States Constitution provides:
The Congress shall have Power to dispose of and make all
needful Rules and Regulations respecting the Territory or
other Property belonging to the United States.

See: Brief for the United States at pages 25-30.
8

Article IX of the Treaty of Peace Between the United States and
Spain of December 10, 1898, establishes that:
“The civil rights and political status of the native
inhabitants of the territories hereby ceded to the United
States shall be determined by the Congress.”
The status of the inhabitants of Puerto Rico is explained in: “The
status of the inhabitants of Puerto Rico”, infra.

9

Mora v. Mejias, 115 F. Supp. 610 (D.P.R. 1953) and 206 F.2d 377,
387 (1st Cir. 1953) relying on Texas v. White, 74 U.S. (7 Wall.) 700
at 719-721 (1869) (“In the Constitution the term state most
frequently expresses the combined idea just noticed, of people,
territory, and government.”) and cited with approval in. CaleroToledo v. Pearson Yacht Leasing Co., 416 U.S. 663 at 672-673
(1974) (“Puerto Rico has thus not become a State in the federal
Union like, the [50] States, but it would seem to have become a
State within a common and accepted meaning of the word. Cf.
State of Texas v. White, 1868, 7 Wall. 700, 721. It is a political
entity created by the act and with the consent of the people of
Puerto Rico and joined in union with the United States of America
under the terms of the compact.”) See also: Walker, Mac Amhlaigh,
and Michelon, “Law, polity and the legacy of statehood: An

6
curiae brief centers on recent Supreme Court
jurisprudence that addresses the issue of the
fundamental rights, privileges and immunities of
persons and United States citizens residing in the body
politic named the Commonwealth of Puerto Rico. In
other words, Congress may have power to dispose of
and make all needful Rules and Regulations respecting
the Territory or other Property belonging to the United
States under Article IV, Section 3 but in the process of
doing so Congress can not affect fundamental rights,
privileges and immunities of persons and United States
citizens residing in the body politic named the
Commonwealth of Puerto Rico, including the
fundamental right not to be deprived and divested of
life, liberty, or property and equal protection
guarantees. These are fundamental due process and
equal protection rights, inherent to life, liberty, and
property privileges and immunities which cannot be
relinquished either by the United States or Puerto
Rico.

introduction” at 1149 (International Journal of Constitutional Law,
Volume 16, Issue 4, October 2018). (“Let us start, then, on familiar
ground, by recalling the framing assumption that has traditionally
united rather than divided many schools of legal and political
thought. This assumption holds that the standing of the state as
the key organizing framework of people, territory, and government
both presupposes and supports a mature form of legal order.”)
(https://academic.oup.com/icon/article/16/4/1148/5297610).

7
ARGUMENT
I.

INTRODUCTION

The amicus curiae brief centers on recent Supreme
Court law and jurisprudence and addresses the issue of
the fundamental rights, privileges and immunities of
persons and United States citizens residing in the body
politic named the Commonwealth of Puerto Rico not to
be deprived and divested of life, liberty, or property,
particularly due process and equal protection and not
to be treated under the Territory Clause as property
regarding the SSI program. As stated in Peña Martinez
v. Azar, 376 F. Supp. 3d 191 (D.P.R. 2019) “to cite the
Territory Clause and not the Due Process Clause
appears odd because the case on its face is not about
the reach of Congress’s authority to govern Puerto Rico
as a jurisdiction but on its discriminatory treatment of
Puerto Rico residents.”
II.

THE
SUPPLEMENTAL
INCOME (SSI) PROGRAM

SECURITY

The SSI program provides benefits to low-income
individuals who are older than sixty-five, blind, or
disabled. See 42 U.S.C. Section 1382(a), 1382c. In
contrast to other types of federal insurance programs,
like Social Security Title II benefits, 42 U.S.C. Section
401-433, which are paid for by payroll taxes, Congress
funds SSI from the general treasury. See 42 U.S.C.
Section 1381; see also Pub. L. No. 116-94, 133 Stat.
2534, 2603 (2019) (funding SSI for fiscal year 2020).
SSI is a means-tested program, so only those
individuals who meet the age, disability, or blindness
requirements and fall beneath the federally mandated

8
income and asset limits are eligible. 42 U.S.C. Section
1382.2.10
After Congress enacted the Social Security Act
Amendments of 1950, Puerto Rico submitted state
plans to participate in programs for Old-Age
Assistance, Aid to the Blind, and Aid to the
Permanently and Totally Disabled, which were
consolidated into AABD in 1963. See CRS Report,
supra at 14-15. Passed in its current form in 1972, SSI
replaced these adult assistance programs in the states
and Washington, D.C.; however, its predecessor AABD
continues to operate in Puerto Rico. Id. at 15; see Social
Security Amendments of 1972, Pub. L. No. 92–603,
§ 301, 86 Stat. 1329, 1465 (1972). AABD is financed by
a capped categorical matching grant whereby the
federal government contributes 75 percent, and the
territorial government contributes 25 percent;
administrative costs are split 50/50. CRS Report, supra
at 12. Like SSI, federal funds for AABD flow from the
general fund of the U.S. treasury. Id.11
III.

ARGUMENT

The United States concedes that the guarantees of
due process and equal protection apply fully in Puerto
Rico. Having the United States conceded that the
guarantees of due process and equal protection apply
fully in Puerto Rico we can conclude that persons and
United States citizens aged, blind, and disabled who
lack the financial means to support themselves
10

The SSA and SSI program descriptions are taken literally from
United States v. Vaello-Madero, 956 F.3d 12 (1st Cir. 2020).
11

United States v. Vaello-Madero, supra.

9
residing in the body politic named the Commonwealth
of Puerto Rico can not be, under the present United
States Constitutional structure, be deprived and
divested of their rights, privileges and immunities to
life, liberty, and property, particularly the equal
protection of the laws. The aged, blind, and disabled
persons or individuals who lack the financial means to
support themselves are similarly, if not equally,
situated whether they are in the states, Puerto Rico or
the other territories, regarding the SSI program. There
is no rational basis under due process and equal
protection principles for them to be discriminated
against because of where they are located, of their right
to receive benefits under the SSI program.
In United States Department of Agriculture v.
Moreno, 413 U.S. 528 (1973), a food stamp program
equal protection case, in practical operation equivalent
to the SSI program at issue here, deprived persons and
citizens of the United States excluded from
participation of equal treatment. The Supreme Court
framed the excluded class as “only those persons who
are so desperately in need of aid that they cannot even
afford to alter their living arrangements so as to retain
their eligibility.” Id. at 538. As in this case, the SSI
program exclusions at issue here would force Vaello
Madero and persons and citizens of the United States
similarly situated to alter their living arrangements to
obtain or retain their eligibility to the SSI program.
Unequal treatment of similarly situated persons and
United States citizens in need violates due process and
equal protection.

10
Further, the right to move to and from Puerto Rico
to and from a state or another territory is guaranteed
as a fundamental equal protection right, privilege or
immunity of state, Commonwealth of Puerto Rico and
United States Citizens. The fundamental equal
protection rights, privileges, and immunities of citizens
of the United States shall be respected in Puerto Rico
to the same extent as though Puerto Rico were a State
of the Union and subject to the provisions of paragraph
1 of section 2 of article IV of the Constitution of the
United States reads the Puerto Rico Federal Relations
Act12. In Balzac v. Porto Rico, 258 U.S. 298 at 308
(1922), Chief Justice Taft writing for a unanimous
Court held that United States citizens residing in
Puerto Rico have a right to move into the continental
United States and becoming residents of any State
there to enjoy every right of any other citizen of the
United States, civil, social and political. The right to
move to and from a state and a territory is a two-way
street. The Congress of the United States lacks the
power to deny to aged, blind, and disabled persons and
United States citizens who lack the financial means to
support themselves their fundamental due process and
equal protection rights, privileges, and immunities as
citizens of the United States regarding the SSI
program just because they decided to move to Puerto
Rico, a state, or other territory. Therefore, depriving
aged, blind, and disabled persons, just because they
decided to “stay” or reside in Puerto deprives them of
the financial means to support themselves of the SSI
program benefits deprives them of their fundamental
equal protection rights, privileges, and immunities as
12

48 U.S. Code § 737. (Privileges and immunities)

11
citizens of the United States or as the Balzac v. Porto
Rico, supra court phrased it, deprive the inhabitants of
Puerto Rico of their rights “to enjoy every right of any
other citizen of the United States, civil, social and
political.” Id. at 308.13
The equal protection clause, also called the equality
clause, prohibits legislation, discriminating against
some and favoring others if they are similarly situated
unless there is a rational reason to do so.14 Undue favor
and individual or class privilege, on the one hand, and
a hostile discrimination or the oppression of inequality,
on the other is not a rational reason to do so. The equal
protection embodied in the Fifth and Fourteenth
Amendments of the United States Constitution “tends
to secure equality of law in the sense that it makes a
required minimum of protection for every one’s right of
life, liberty and property, which the Congress or the
legislature may not withhold. Our whole system of law
is predicated on the general, fundamental principle of
equality of application of the law. ‘All men are equal
before the law,’ ‘This is a government of laws and not
of men,’ ‘No man is above the law,’ are all maxims
showing the spirit in which legislatures, executives and
courts are expected to make, execute and apply laws.
But the framers and adopters of this Amendment were
13

The text of the Constitution of the United States denies to
citizens of Puerto Rico the right to vote for the President of the
United States or to vote for members of the House of
Representatives or of the Senate, Igartúa v. United States (Igartúa
IV), 626 F.3d 592 (1st Cir. 2010) and Igartúa v. Trump, 868 F.3d
24 (1st Cir. 2017).
14

Truax v. Corrigan, 257 U.S. 312 (1921) (Chief Justice Taft
writing the opinion of the Court).

12
not content to depend on a mere minimum secured by
the due process clause, or upon the spirit of equality
which might not be insisted on by local public opinion.
They therefore embodied that spirit in a specific
guaranty. The guaranty was aimed at undue favor and
individual or class privilege, on the one hand, and at
hostile discrimination or the oppression of inequality,
on the other.”15
In this case we are not before a case of lawful
rational or reasonable classifications permitted by the
equality clause of the United States Constitution. We
are before a wholesale and total declaration of
exclusion of a whole class of persons, the inhabitants of
Puerto Rico and the territories of Guam and the Virgin
Islands who are aged, blind, and disabled and who lack
the financial means to support themselves regarding
the SSI program. The Court of Appeals for the First
Circuit defined the classification subject to challenge as
to Puerto Rico as: “individuals who meet all the
eligibility criteria for SSI except for their residency in
Puerto Rico.”16 The Court of Appeals for the First
Circuit went on to hold that: “This classification is
clearly irrelevant to the stated purpose of the program,
which is to provide cash assistance to the nation’s
financially needy elderly, disabled, or blind. See
Moreno, 413 U.S. at 534.”17 This classification by
Congress is indeed in violation of the fundamental
equal protection rights, privileges, and immunities of
those inhabitants, citizens or not. It is also as denial of
15

Truax v. Corrigan, supra at 332.

16

United States v. Vaello-Madero, supra.

17

United States v. Vaello-Madero, supra.

13
the equal protection rights of citizens of the states,
citizens of the United States, and of the inhabitants of
Puerto Rico18, citizens or not, who are aged, blind, and
disabled and who lack the financial means to support
themselves, regarding the SSI program just because
they decided to move to or inhabit in Puerto Rico.
Suppose a United States citizen living in a state
becomes aged, blind, or disabled while living in one of
the fifty states and he or she lacks the financial means
to support himself or herself in said state, lacking a
family therein and his or her family that can take care
of him or her is in Puerto Rico or other excluded
territory. Suppose a United States citizen living in
Puerto Rico or one of the other excluded territories
lacks the financial means to support himself or herself,
lacks a family who can take care of him or her in one of
the 50 states, the District of Columbia or the Northern
Mariana Islands. What alternative does said persons
desperately in need of aid have with the SSI program
legislation as it stands? None. As we have stated
before, in United States Department of Agriculture v.
Moreno, 413 U.S. 528 (1973), a food stamp program
equal protection case, in practical operation equal to
the SSI treatment of the aged, blind, or disabled
inhabitants of Puerto Rico at issue here, excluded from
participation “only those persons who are so
desperately in need of aid that they cannot even afford
to alter their living arrangements so as to retain their
eligibility” was held unconstitutional under the
equality clause, Id. at 538. The Supreme Court therein
squarely held that unequal treatment of similarly
18

And the inhabitants of the territories of Guam and the Virgin
Islands, citizens or not.

14
situated persons in need violates due process and equal
protection. As in this case, the SSI program exclusions
would force Vaello Madero and persons and citizens of
the United States similarly situated to alter their living
arrangements to obtain or retain their eligibility.
This wholesale total exclusion from benefits
regarding the SSI program to the aged, blind, and
disabled persons who lack the financial means to
support themselves does not withstand rational
analysis. The first inquiry at first glance is whether the
discrimination is rational because some pros and cons
as to issues of taxation and other economic data
regarding the body politics involved. As the United
States Court of Appeals for the First Circuit reasoned
in this case: “Any individual eligible for SSI benefits
almost by definition earns too little to be paying federal
income taxes. Thus, the idea that one needs to earn
their eligibility by the payment of federal income tax is
antithetical to the entire premise of the program. How
can it be rational for Congress to limit SSI benefits ‘to
exclude populations that generally do not pay federal
income taxes’ when the very population those benefits
target do not, as a general matter, pay federal income
tax?”19 The Court of Appeals for the First Circuit
added: “As to the contention that decisions based on
fiscal considerations that improve the protection
afforded to the entire benefitted class and thus should
be subject to deference is inapplicable to the situation
before us, where an entire segment of the would-be
benefitted class is excluded. …[T]he Fifth Amendment
does not permit the arbitrary treatment of individuals
19

United States v. Vaello-Madero, supra.

15
who would otherwise qualify for SSI but for their
residency in Puerto Rico (those plausibly considered
least able to ‘bear the hardships of an inadequate
standard of living’) … Even under rational basis
review, the cost of including Puerto Rico’s elderly,
disabled, and blind in SSI cannot by itself justify their
exclusion.”20
As was stated in Harris v. Rosario21 by Justice
Marshall dissenting:
In my view it is by no means clear that the
discrimination at issue here could survive
scrutiny under even a deferential equal
protection standard. Id. at 656.
Here,

as

Chief

Justice

20

United States v. Vaello-Madero, supra.

21

446 U.S. 651 (1980).

22

Taft 22

wrote

We have quoted from Chief Justice Taft’s opinions as he was a
contemporaneous actor and spectator during the formative years
of post 1898 Treaty of Paris territorial organic acts and
jurisprudence and author of the United States citizenship
unanimous Supreme Court opinion in Balzac v. Porto Rico, supra.
He had been President, governor of the Philippines, promoted
Justice White, creator of the non incorporation doctrine in Downes
v. Bidwell, 182 U.S. 244 (1901) to Chief Justice, and “a chief
architect of the United States territorial policies.” Batholomew H.
Sparrow, The Insular Cases and the Emergence of American
Empire (University Press of Kansa 2006 at page 197). “The theory
that was to prevail seems first to have been enunciated by Chief
Justice Taft, who observed that the Due Process and Equal
Protection Clauses are associated and that [i]t may be that they
overlap, that a violation of one may involve at times the violation
of the other, but the spheres of the protection they offer are not
coterminous. . .. [Due process] tends to secure equality of law in
the sense that it makes a required minimum of protection for every

16
contemporaneously to the granting of United States
Citizenship to the inhabitants of Puerto Rico, the
guaranty of the equality clause “was aimed at undue
favor and individual or class privilege, on the one hand,
and at hostile discrimination or the oppression of
inequality, on the other. It sought an equality of
treatment of all persons…”23 Equal protection of the
laws is essentially a direction that all persons similarly
situated should be treated alike.
The aged, blind, and disabled persons or individuals
who lack the financial means to support themselves are
similarly, if not equally, situated whether they are in
the states, Puerto Rico or the other territories.
Therefore, lacking a rational basis to discriminate
because of tax or fiscal reasons, the denial of program
benefits to the inhabitants of Puerto Rico, citizens or
not, who are aged, blind, and disabled persons or who
lack the financial means to support themselves is a
deprivation of equal protection rights, privileges and
immunities guaranteed by the United States
Constitution.

one’s right of life, liberty and property, which the Congress or the
legislature may not withhold. Our whole system of law is
predicated on the general, fundamental principle of equality of
application of the law.” Cong. Rsch. Serv., Constitution of the
United States: Analysis and Interpretation, “Fifth Amendment >
Amdt5.4.5.2.6 Equal Protection as a Substantive Component of
Due Process Clause” (https://constitution.congress.gov/
browse/essay/amdt5_4_5_2_6/#ALDF_00008467).
23

Truax v. Corrigan, supra at 332-333.

17
IV.

THE TERRITORY CLAUSE ARGUMENT

Seeing its tax and fiscal considerations arguments
fail regarding SSI program, together with their
Northern Marianas argument, more so after trying to
explain the alleged differences between the
Commonwealth of the Northern Mariana Islands and
the Commonwealth of Puerto Rico24, counsel for the
United States falls back on territorial clause
arguments not applicable to the present case25. In so
doing they forget that said arguments are inapplicable
and outdated to the present-day Puerto Rico and to the
SSI program by the application of the fundamental due
process and equal protection rights, privileges and
immunities of persons and citizens inhabiting Puerto
Rico, rights more recently described as “fundamental to
our scheme of ordered liberty” and as “deeply rooted in
this Nation’s history and tradition”26.
The Territory Clause cannot be applied to the
inhabitants of the body politic named the
Commonwealth of Puerto Rico as if they are property.
It has been wisely stated “That a [person]27 cannot be
made the subject of a contract with the same force and
effect as if it where a mere chattel has long been
established law. A similar error was basic in the
majority opinion in the historic case of Dred Scott v.

24

Brief for the United States at pages 27-28.

25

Brief for the United States at pages 25-30.

26

McDonald v. Chicago, 561 U.S. at 767 (2010).

27

In the cited case the reference is to “a child”.

18
Sandford, 60 U.S. 393 (1857).”28 It is interesting to note
that Justice White in his concurring opinion in Downes
v. Bidwell, 182 U.S. 244 (1901) stated the following as
to the case of Dred Scott v. Sandford, supra: “Whatever
may be the view entertained of the correctness of the
opinion of the court in that case, in so far as it
interpreted a particular provision of the Constitution
concerning slavery and decided that as so construed it
was in force in the territories, this in no way affects the
principle which that decision announced, that the
applicable provisions of the Constitution were operative
[in the territories]. That doctrine was concurred in by
the dissenting judges.” Id. at 291.
As stated by Justice Joseph Story: “[T]he rights of
a class of persons still suffering under a ban of
prejudice could never be deemed entirely secure when
at any moment it was within the power of an
unfriendly Congress to take them away by repealing
the act which conferred them.”29 In this case, it is not
within the power of Congress to implicitly repeal the
equal protection clause protections of the United States
Constitution regarding the SSI program, disguised as
power under the Territory clause, as to the persons and
United States citizens residing in Puerto Rico.
To clarify those arguments advanced by counsel for
the United States we turn now our attention.

28

Commonwealth ex rel. Children’s Aid Society v. Gard, 362 Pa. 85
(Pa. 1949).

29

Joseph Story, Commentaries on the Constitution of the United
States, Section 1931 (The Fourteenth Amendment) at page 653
(Little, Brown and Company, Fourth Edition 1873).

19
V.

LIBERTY
AND
PROPERTY
ARE
ENSHRINED IN DUE PROCESS, EQUAL
PROTECTION AND IN THE RIGHTS,
PRIVILEGES AND IMMUNITIES OF
PERSONS AND CITIZENS

The liberty and property components enshrined in
the equal protection clause is contained in the Fifth
and Fourteenth Amendments and in Article IV of the
United States Constitution as a fundamental right,
privilege, and immunity not to be deprived and
divested of life, liberty, or property, due process and
equal protection. All Justices since Downes v. Bidwell,
182 U.S. 244 (1901) have expressed the importance of
guaranteeing life, liberty, and property in the newly
acquired territories, Examining Board of Engineers,
Architects & Surveyors v. Flores de Otero, 426 U.S. 572,
599-601 (1976). As we have stated before, Congress
may be given the power to dispose of and make all
needful Rules and Regulations respecting the Territory
or other Property belonging to the United States under
Article IV, Section 3 but in the process of doing so
Congress can not affect fundamental rights, privileges
and immunities of persons and United States citizens
residing in the body politic named the Commonwealth
of Puerto Rico, including the fundamental right not to
be deprived and divested of life, liberty, or property,
due process and equal protection of the laws, federal,
state or territorial regarding the program in Puerto
Rico.
Further, although Califano v. Torres, 435 U.S. 1
(1978) summarily dismissed the right to travel
argument to benefits regarding the SSI program in

20
Puerto Rico, the continued viability of said ruling
should be considered by this Court as should also be
considered the continued viability of the case of Harris
v. Rosario, 446 U.S. 651 (1980).30
VI.

THE INSULAR CASES OF DOWNES V.
BIDWELL AND BALZAC V. PORTO RICO31

As we stated before, all Justices since Downes v.
Bidwell, 182 U.S. 244 (1901) have expressed the
importance of guaranteeing life, liberty, and property,
due process and equal protection in the newly acquired
territories, Examining Board of Engineers, Architects
& Surveyors v. Flores de Otero, 426 U.S. 572, 599-601
(1976) (“The Court recognized the applicability of these
guarantees as long ago as its decisions in Downes v.
Bidwell, 182 U.S. 244, 283-284 (1901), and Balzac v.
Porto Rico, 258 U.S. 298, 312-313 (1922).”). See: Justice
Brown in the opinion of the Court in Downes v.
Bidwell, supra at 283; Justice White concurring, joined
by Justices Shiras, McKenna and Gray, Id. at 294-295
and 298 and the dissent written by Chief Justice
Fuller, concurred by Justices Harlan, Brewer and
Peckham, Id. at 373. Chief Justice Taft stated in his
unanimous opinion in Balzac v. Porto Rico, 258 U.S.
298 (1922) that “The Constitution of the United States
is in force in Porto Rico as it is wherever and whenever
the sovereign power of that government is exerted” and
that “The guaranties of certain fundamental personal
rights declared in the Constitution, as for instance that
30

Dealing with the Aid to Families with Dependent Children
program (AFDC).
31

At present there are no incorporated territories in the United
States as they were admitted by the Congress into the Union.

21
no person could be deprived of life, liberty, or property
without due process of law, had from the beginning full
application in the Philippines and Porto Rico, and, as
this guaranty is one of the most fruitful in causing
litigation in our own country, provision was naturally
made for similar controversy in Porto Rico.” Id. at 312313.
VII.

THE
FUNDAMENTAL
RIGHTS,
PRIVILEGES AND IMMUNITIES OF THE
INHABITANTS OF PUERTO RICO

Examining Board of Engineers, Architects &
Surveyors v. Flores de Otero, 426 U.S. 572 (1976)32 is
the leading case on the application of civil rights
guaranteed by the Constitution and laws of the United
States in the body politic named the Commonwealth of
Puerto Rico through the application of the due process
and equal protection clauses of the United States
Constitution, to “the inhabitants of Puerto Rico”. The
“inhabitants of Puerto Rico” are thus protected, at least
under either the Fifth Amendment or the Fourteenth
Amendment in their fundamental rights, privileges, or
immunities to due process and equal protection. Id. at
581-586 and 599-601.
The Court’s decisions respecting the rights of the
inhabitants of Puerto Rico have been neither
unambiguous nor exactly uniform. The nature of
32

Cited with approval in Commonwealth v. Valle, 136 S. Ct. 1863,
1874 (2016) in both the opinion of the Court and the dissenting
opinion of Justices Breyer and Sotomayor (Id. at 1883) and by
Justice Sotomayor in her concurring opinion in Financial
Oversight & Management Board for Puerto Rico v. Aurelius
Investment, LLC, 140 S. Ct. 1649, 1672-1673 (2020).

22
this country’s relationship to Puerto Rico was
vigorously debated within the Court as well as
within the Congress. … It is clear now, however,
that the protections accorded by either the Due
Process Clause of the Fifth Amendment or the
Due Process and Equal Protection Clauses of the
Fourteenth Amendment apply to residents of
Puerto Rico. The Court recognized the
applicability of these guarantees as long ago as
its decisions in Downes v. Bidwell, 182 U.S. 244,
283-284 (1901), and Balzac v. Porto Rico, 258
U.S. 298, 312-313 (1922). The principle was
reaffirmed and strengthened in Reid v. Covert,
354 U.S. 1 (1957), and then again in CaleroToledo, 416 U.S. 663 (1974), where we held that
inhabitants of Puerto Rico are protected, under
either the Fifth Amendment or the Fourteenth,
from the official taking of property without due
process of law. Id. at 599-601.
Living under a republican form of government and
separation of powers with a bill of rights and a
guarantee of equal protection of the laws and due
process is a right, privilege and/or immunity of the
“inhabitants of Puerto Rico”33, be they citizens or not.
A republican form of government and separation of
powers with a bill of rights and a guarantee of equal
protection is inherent in the American constitutional
system and applies to the federal government, to state
governments, to territorial governments and to the
body politic known as the Commonwealth of Puerto
Rico. For the above reason it is surprising to read that
33

A term used to describe Isabella Gonzales in Gonzales v.
Williams, infra.

23
counsel for the United States implicit main argument
to deny equal protection is that under long-standing
precedent Congress has “plenary” authority to fashion
territorial entities as it sees fit and without any
structural constraints under the Territory Clause. The
Supreme Court has held that no such authority is
“plenary”. The Supreme Court held just last year that
“structural constraints, designed in part to ensure
political accountability, apply to all exercises of federal
power, including those related to Article IV entities.”
Financial Oversight & Management Board for Puerto
Rico v. Aurelius Investment, LLC, 140 S. Ct. 1649 at
1657 (2020)34. Further, the inhabitants of Puerto Rico
have a right not to be deprived and divested of life,
liberty, or property, particularly due process and equal
protection, Examining Board of Engineers, Architects
& Surveyors v. Flores de Otero, supra. We repeat, the
Territory Cluse cannot be applied to the inhabitants of
Puerto Rico, persons and United States Citizens, with
the same force and effect as if they were a mere chattel.

34

In the most recent Supreme Court case dealing with Puerto Rico,
Financial Oversight & Management Board for Puerto Rico v.
Aurelius Investment, LLC, 140 S. Ct. 1649 (2020) (Aurelius), the
Supreme Court held that the Financial Oversight and
Management Board for Puerto Rico’s members have primarily
local duties, such that their selection is not subject to the
constraints of the Appointments Clause. Because of its temporal
nature the Court should not consider rulings made regarding
PROMESA as binding on any of the issues presented by this case.
It is a statute which by its own terms is not permanent as it
terminates upon the Commonwealth of Puerto Rico complying with
certain conditions,48 U.S. Code 2149

24
Justice Marshall dissenting in Harris v. Rosario,
supra, precisely made the distinction between the
discrimination against the government of Puerto Rico
and the discrimination against the inhabitants of
Puerto Rico citizens or not:
It is unclear whether the Court’s Territory
Clause analysis is intended to apply only where
the discrimination is against the Government of
Puerto Rico and not against persons residing
there. Such a distinction would lack substance in
any event. The discrimination against Puerto
Rico under the AFDC program must also operate
as a discrimination against United States
citizens residing in Puerto Rico who would
benefit, one way or another, from such increased
federal aid to Puerto Rico… Ultimately this case
raises the serious issue of the relationship of
Puerto Rico, and the United States citizens who
reside there, to the Constitution. Id. at 651 n.1.
The distinction between the discrimination against
the government Puerto Rico and the discrimination
against the inhabitants of Puerto Rico as we have
before stated was also noted in Peña Martinez v. Azar,
supra.
VIII. THE STATUS OF THE INHABITANTS OF
PUERTO RICO
In Gonzales v. Williams, 192 U.S. 1 (1904), a case
long forgotten, the Supreme Court held that as to “the
inhabitants of Puerto Rico” upon proclamation of the
Treaty of Paris of 1898 ceding Puerto Rico to the
United States their nationality became American and

25
by the Organic Act of Puerto Rico of April 12, 1900 also
known as the Foraker Act creating a civil government
for Porto Rico, the “inhabitants of Puerto Rico” were to
be deemed citizens of Porto Rico, and they and citizens
of the United States residing in Porto Rico were
constituted a body politic under the name of The People
of Porto Rico entitled to the protection of the
government of the United States. Isabella Gonzales, an
unmarried woman, was born and resided in Porto Rico,
and was an inhabitant thereof on April 11, 1899, the
date of the proclamation of the Treaty of Paris; she
arrived at the Port of New York from Porto Rico,
August 24, 1902, when she was prevented from landing
and detained by the Immigration Commissioner at that
port as an “alien immigrant,” in order that she might
be returned to Porto Rico if it appeared that she was
likely to become a public charge. Id. at 7. The Supreme
Court held:
We think it clear that the act relates to
foreigners as respects this country, to persons
owing allegiance to a foreign government, and
citizens or subjects thereof; and that citizens of
Porto Rico, whose permanent allegiance is due to
the United States; who live in the peace of the
dominion of the United States; the organic law
of whose domicile was enacted by the United
States, and is enforced through officials sworn to
support the Constitution of the United States,
are not “aliens,” and upon their arrival by water
at the ports of our mainland are not “alien
immigrants,” within the intent and meaning of
the act of 1891. Id. at 13.

26
By the Organic Act of Porto Rico of March 2, 1917,
known as the Jones Act, those citizens of Puerto Rico”
became citizens of the United States, Balzac v. Porto
Rico, 258 U.S. 298 at 307 (1922). The ruling in
Gonzalez v. Williams, supra, as to United States
nationality and Balzac v. Puerto Rico, supra, as to
United States citizenship have established that the
inhabitants of Puerto Rico are not “aliens” or “alien
immigrants”. Therefore, the inhabitants of Puerto Rico
are not alien or foreign inhabitants in a territorial
twilight zone but rather citizens of the United States
and Puerto Rico with all rights, privileges, and
immunities inherent to said status living in a body
politic under the name of the Commonwealth of Puerto
Rico.
Further, as the Supreme Court held in Torres v.
Puerto Rico, 442 U.S. 465 (1979) there are no
international borders, functional or otherwise, between
Puerto Rico and the United States, and Puerto Rico is
within the international borders of the United States.
The “inhabitants of Puerto Rico”, non alien persons
and United States citizens residing in Puerto Rico
constitute a body politic under the name of The
Commonwealth of Porto Rico within the international
borders of the United States. At present according to
the 2020 Census there are 3,285,874 “inhabitants of
Puerto Rico” and every day American citizens are being
born in Puerto Rico. Persons born in Puerto Rico are
citizens of the United States by birth, 8 U.S. Code

27
1402.35 Are those inhabitants and citizens of the United
States to be deprived and divested of their fundamental
rights, privileges and immunities as citizens and
persons, including their right to live with due process
and equal protection of the laws regarding the SSI
program just because they are inhabitants in the body
politic named the Commonwealth of Puerto Rico? The
answer should be a resounding no.
IX.

PUERTO RICO AS A BODY POLITIC — A
COMMONWEALTH - WITH THE TYPICAL
AMERICAN
GOVERNMENTAL
STRUCTURE, CONSISTING OF THE THREE
INDEPENDENT DEPARTMENTS —
LEGISLATIVE, EXECUTIVE, AND JUDICIAL
AND A BILL OF RIGHTS GUARANTEEING
LIFE, LIBERTY, AND PROPERTY

In Puerto Rico v. Shell Co., 302 U.S. 253 (1937) the
Supreme Court held that a body politic or
commonwealth consists of “the typical American
governmental structure, consisting of the three
35

June 27, 1952, ch. 477, title III, ch. 1, §302, 66 Stat.236.
Persons Born In Puerto Rico On Or After April 11, 1899
All persons born in Puerto Rico on or after April 11,1899,
and prior to January 13,1941, subject to the jurisdiction of
the United States, residing on January 13,1941, in Puerto
Rico or other territory over which the United States
exercises rights of sovereignty and not citizens of the
United States under any other Act, are hereby declared to
be citizens of the United States as of January 13, 1941. All
persons born in Puerto Rico on or after January 13,
1941, and subject to the jurisdiction of the United
States, are citizens of the United States at birth.
(Emphasis added).

28
independent departments — legislative, executive and
judicial.” Id. at 261-262. In Commonwealth v. Valle,
136 S. Ct. 1863 (2016) the Supreme Court held, as
regards the powers of the Commonwealth of Puerto
Rico after 1952:
Those constitutional developments were of great
significance—and, indeed, made Puerto Rico
“sovereign” in one commonly understood sense of
that term. As this Court has recognized,
Congress in 1952 “relinquished its control over
[the Commonwealth’s] local affairs [,] grant[ing]
Puerto Rico a measure of autonomy comparable
to that possessed by the States.” Examining Bd.
of Engineers, Architects and Surveyors v. Flores
de Otero, 426 U.S. 572, 597, 96 S. Ct. 2264, 49
L.Ed.2d 65 (1976) ; see id., at 594, 96 S. Ct. 2264
(“[T]he purpose of Congress in the 1950 and
1952 legislation was to accord to Puerto Rico the
degree of autonomy and independence normally
associated with States of the Union”); Rodriguez
v. Popular Democratic Party, 457 U.S. 1, 8, 102
S. Ct. 2194, 72 L.Ed.2d 628 (1982) (“Puerto Rico,
like a state, is an autonomous political entity,
sovereign over matters not ruled by the
[Federal] Constitution” (internal quotation
marks omitted). Id. at 1874.
In other words, as explained in Calero-Toledo v.
Pearson Yacht Leasing Co., 416 U.S. 663 (1974):
Puerto Rico has thus not become a State in the
federal Union like, the [50] States, but it would
seem to have become a State within a common
and accepted meaning of the word. Cf. State of

29
Texas v. White, 1868, 7 Wall. 700, 721. It is a
political entity created by the act and with the
consent of the people of Puerto Rico and joined
in union with the United States of. America
under the terms of the compact. Id. at 672-673.
Notice that according to Examining Board of
Engineers, Architects & Surveyors v. Flores de Otero,
426 U.S. 572 at 597 (1976) and Commonwealth v. Valle,
supra: “Congress in 1952 ‘relinquished its control over
the organization of the local affairs of the island and
granted Puerto Rico a measure of autonomy
comparable to that possessed by the States.’” Id. at
1874.
CONCLUSION
The United States concedes that the guarantees of
due process and equal protection apply fully in Puerto
Rico. Having the United States conceded that the
guarantees of due process and equal protection apply
fully in Puerto Rico we can conclude that persons and
United States citizens aged, blind, and disabled who
lack the financial means to support themselves
residing in the body politic named the Commonwealth
of Puerto Rico can not be, under the present United
States Constitutional structure be deprived and
divested of their rights, privileges and immunities to
life, liberty, and property, particularly the equal
protection of the laws regarding the program. The
aged, blind, and disabled persons or individuals who
lack the financial means to support themselves are
similarly, if not equally, situated whether they are in
the states, Puerto Rico or the other territories,
therefore, under due process and equal protection

30
principles they can not be discriminated against
regarding the program because of where they are
located. There is no rational basis to deprive them of
such rights.
Unequal treatment of the aged, blind, or disabled
inhabitants of Puerto Rico who are excluded from
participation in the program because they wish or need
to alter their living arrangements violates due process
and equal protection, United States Department of
Agriculture v. Moreno, 413 U.S. at 538. As in Moreno,
supra, the SSI exclusions at issue here would force
Vaello Madero and persons and citizens of the United
States similarly situated to alter their living
arrangements to obtain and retain their eligibility
regarding the program. Unequal treatment of similarly
situated persons and citizens of the United States in
need of benefits under the Supplemental Security
Income (SSI) program violates due process and equal
protection.
Respectfully submitted,
JESÚS R. RABELL MÉNDEZ
Counsel of Record
RABELL MÉNDEZ C.S.P.
P.O. Box 195580
San Juan, Puerto Rico 00919
(787) 312-0259
jesusrabell@gmail.com
Counsel for Amicus Curiae
Diálogo Por Puerto Rico
(Dialogue of Puerto Rico)

